'I

V
No.

ir)-m

m)t
Supreme Court of tlje fHmtefc States;

FILED
JUN 0 h 2020

Dilip Dey, PH.D
Petitioner,

OFFICE OF THE CLERK
SUPREME COURT. U.S.

V.

Ll-HUEI TSAI, PH.D., MIT,
Thomas benjamin, ph.d. (harvard medical school), Gregory evans, md (university of
CALIFORNIA, IRVINE), DAVID ROSMARIN, MD (PSYCHIATRIST, MCLEAN HOSPITAL), ANANNADEY,
M.B.B.S. (MY ESTRANGED WIFE),
Mr. John amaral (my landlord)

Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the First Circuit

Petition for Writ of Certiorari

Dilip Dey, PH.D.
29A Adams Street
Dorchester, Massachusetts 02122
Tel: (781) 400-3422
Email: deydilip@gmail.com
Pro Se

RECEIVED
AUG 2 if 2020

1
QUESTIONS PRESENTED

1.

Whether the prohibition in Title VII of the Civil Rights Act of 1964 against em­
ployment discrimination was violated because of my race, age encompasses dis­
crimination.

2.

Whether a negative reference letter by an ex-employer is an adverse employ­
ment action in a claim for retaliation under Title VII of the Civil Rights Act of
1964. Whether the district court properly dismissed my employment discrimi­
nation and retaliation claims under Title VII of the Civil Rights Act of 1964,

LIST OF PARTIES

Petitioner, plaintiff below, is Dilip Dey
Respondents, defendants below, are:
Li-Huei Tsai, Ph.D. (MIT)
Thomas Benjamin, Ph.D. (Harvard Medical School)
Gregory Evans, MD (University of California, Irvine),
David Rosmarin, MD (Psychiatrist, McLean Hospital, Harvard Medical School)
Ananna Dey, M.B.B.S. (my estranged wife),
Mr. John Amaral (my landlord).

2

CORPORATE DISCLOSURE STATEMENT

1. MIT, HARVARD.
2. University of California, IRVINE.

3

TABLE OF CONTENTS
QUESTIONS PRESENTED

Error! Bookmark not defined.

LIST OF PARTIES

Error! Bookmark not defined.

CORPORATE DISCLOSURE STATEMENT

2

TABLE OF CONTENTS

3

TABLE OF AUTHORITIES

4

OPINIONS BELOW

5

JURISDICTION

5

CONSTITUTIONAL PROVISIONS AND STATUTES

5

STATEMENT OF THE CASE

8

REASONS FOR GRANTING THE WRIT

15

BACKGROUND HISTORY

16

RELEVANT STATUTORY PROVISION

6

CONCLUSION
APPENDIX

34
Error! Bookmark not defined.

Dilip Dey, Ph.D. v. Li-Huei Tsai, Ph.D., et al., First Circuit Court of Appeals,
no. 19-1478 (January 7, 2020)

Error! Bookmark not defined.

Dilip Dey, Ph.D. v. Li Huei Tsai, Ph.D., no.l8-12113-NMG (D. Mass. April 5,
2019)

Error! Bookmark not defined.

4

APPENDIX

HARASSMENT & RETALIATION,

TABLE OF AUTHORITIES
Cases

Burlington N. & Santa Fe Ry. Co. v. White, 548 U.S. 53, 61 (2006).

Gomez-Perezv. Potter, 553 U.S. 474, 487 (2008).

A6 -A174

5

OPINIONS BELOW
The United States Court of Appeals for the First Circuit’s judgment in Dilip Dey
v. Li-Huei Tsai’ et al, dated January 7, 2020, is reproduced in the Appendix on page
A-l.
The unpublished opinion and order of the District Court dismissing the com­
plaint is found at A-2

JURISDICTION
This Court has jurisdiction under 28 U.S.C. § 1254(l) to review by writ of certio
rari the United States Court of Appeals for the First Circuit’s judgment dated Janu­
ary 7, 2020.

CONSTITUTIONAL PROVISIONS AND STATUTES
Constitutional Provisions
Constitution, Statutes, Charter, and Codes
42 U.S.C. 2000e-16(a)
52 U.S.C. § 3010l(B)(ii)

7

8

Act of 1967, 29 U.S.C. 633a,
Table of authorities
Cases:
Robert Brandon Vs. Lockheed Martin Corn.
No. 2003-CA-1917 (April 2004)

6

Constitutional Provisions:
Statutory Provisions:
& Other Authorities:
Massachusetts Law against Sexual Harassment:
MGL c. 214 s.lC

Page 10

Unlawful discrimination because of Race, Color, Religious Beliefs: Page 30
Massachusetts Gov't Code§ MGL C.151B

Page 49

Criminal Prosecution for willfully destroying of evidence:
Sarbanes-Oxley Act of 2002. Pub.L. 107-204.
Age discrimination in employment act:
1967 (ADEA)Pub. L. 90-202.
Age discrimination in employment:
Title VII of the Civil Rights Act of 1964 (Title VII). Page 2

RELEVANT STATUTORY PROVISION
42 U.S.C. § 2000e-2(a)(l) provides in pertinent part: “It shall be an unlawful em­
ployment practice for an employer to fail or refuse to hire or to discharge any indi­
vidual, or otherwise to discriminate against any individual with respect to his com­
pensation, terms, conditions, or privileges of employment, because of such individu­
al’s race, color, religion, sex, or national origin.”
characteristics. Ibid.

7

In addition to that "substantive anti-discrimination provision," Title VII's pri­
vate-sector provision prohibits retaliation by employers. Burlington N & Santa Fe
Ry. Co. v. White, 548 U.S. 53, 61 (2006). As relevant here, an employer may not “dis­
criminate” against an individual “because he has opposed any practice made an un­
lawful employment practice by [Title VII],
b. Title VII's federal-sector provision also includes
a substantive anti-discrimination provision. 42 U.S.C. 2000e-16(a). Unlike its
private-sector counterpart, the federal-sector antidiscrimination provision "contains
a broad prohibition of ’discrimination,' rather than a list of specific prohibited prac­
tices." Gomez-Perez v. Potter, 553 U.S. 474, 487 (2008). Specifically, the federalsector antidiscrimination provision states that “[a]ll personnel actions” affecting
employees or applicants “shall be made free from any discrimination based on” the
same protected characteristics listed in the private-sector provision. 42 U.S.C.
2000e-16(a).
The federal-sector provision of the Age Discrimination in Employment Act of
1967, 29 U.S.C. 633a, which is “patterned ‘directly after’ Title VII’s federal-sector
discrimination ban,” authorizes a retaliation claim, GomezPerez, 553 U.S. at 487
(citation omitted). The Court has subsequently “assume[d] without deciding” that a
federal employee can bring a retaliation claim under Title VII. Green v.Brennan,
136 S. Ct. 1769, 1774 n.l (2016).

8

STATEMENT OF THE CASE
Petitioner, Dilip Dey, Ph.D. worked at MIT as a research technician. I was sin­
gled out for abuse, discrimination, harassment, and threat to life. When I com­
plained after 2 years and 10 months of the job, retaliation started. As all attempts
failed to get justice, I had only one option open - file a lawsuit in a court of law
while contacting journalists, a civil movement to change the system. The court
would determine the allegations and solve the problem. In 2018,1 filed a lawsuit in
Federal Court, Boston with "Briefs" (narrative) and more than 200 pages Exhibits
(Evidences) requesting judgment on. l) Discrimination in promotion, salary, au­
thorship in publications.
2) Interference in finding a new job, career damage, they are interfering with
my email, phone, or other forms of communication. They are interfering with my re­
ceiving and sending letters.
3) Restriction in the participation of seminars, conferences at MIT & Harvard
buildings by imposing "No-Trespass" order (Civil Rights issue). „
4) I would like to request the court to ask the FBI to investigate the assassina­
tion attempt. I filed a report to police, but they never investigated rather lied and
deceived.
5) I would request the court to order a psychiatric evaluation as they have
spread the canard that I have schizophrenia. It is for my survival. Police can shoot
me any time and then tell this man had schizophrenia and he has a history of men-

9
tal hospitalization (sent for an involuntary mental evaluation by Norwalk, CA police
in 2011).
6) Unauthorized surveillance set up in my home, phone tapping, etc.
Both Federal Court and Appeals Court dismissed the case citing my claims as
malicious and trifling. However, they have not mentioned which statement or pieces
of evidence they found malicious and trifling. A person's life can't be trifling. The
Federal court, Boston's observation that it was not written in the correct format is
also misplaced. As a piece of evidence, I am submitting you the Federal Court law­
suit Brief and Exhibits/Appendix to you in a separate booklet. Besides, if I failed to
write in some judiciary jargon in my Brief, that should not disqualify such an im­
portant issue where there is a question of life and death. A person who survived as­
sassination attempts and getting a constant threat to life can't be the trifling thing.
Whereas my recording of the conversation with police and giving to Harvard Uni­
versity as evidence police claiming only Harvard authority can remove "NoTrespass order" becomes a criminal case against me. Plaintiff (Petitioner), Dilip Dey
believes, and thereon alleges that Defendant (Respondent) Dr. Li-Huei Tsai, Profes­
sor, MIT, and other defendants are responsible for damage of his career which is
still salvageable by the action of honorable Supreme Court. I (Plaintiff) was working
as a Technical Associate (henceforth will be mentioned as "Technician"). Defendant
Dr. Li-Huei Tsai of MIT (henceforth will be mentioned "Dr. Tsai) and her action has
permanently damaged my career, my dignity, and my personal life. I informed MIT
all the allegations mentioned below but for their inaction rather abetting the crime

10
I suffered a lot. I believe they are responsible for the crimes and used police and
other mercenaries to harass me.
FILED LAWSUIT AT THE FEDERAL COURT, BOSTON FOR Discrimination
(race and age), retaliation and harassment for complaining, Whistleblowing, Theft
of my data, Unlawful termination, Sexual harassment (MGL c. 214 s.lC), Police
harassment since 2011 (When worked at UCI) and IUPUI, Interference, and ob­
struction in finding a job. It's a sad story with a long history. Nobody in their life
has ever heard this type of conspiracy involving so many people. I have lost not only
my family life, child custody, money, and a position I deserve, I also almost lost my
life. Since I left his lab in 2001, My ex-boss Dr. Thomas Benjamin of Harvard initi­
ated the plan to destroy my career and physically finish me. Unfortunately, my wife
joined them just after she came to the USA in 2005.
They attempted the first assassination in 2011 while I worked at UCI. The sec­
ond assassination plot was at the final stage in January 2018 while I worked at
MIT (at Tsai Lab from March 2015 - February 2018). I thwarted it promptly. While
confronted with the reality that I survived both the assassination attempt (in 2011)
and the assassination plot (in 2018), University authorities claimed both the time
that I have schizophrenia. I challenged them and I need the court's help to find out
whether I have schizophrenia or not. But Federal Court in Boston and Appeals
court failed miserably. They are virtually saying my writing was not in the right
format my accusations are malicious. I request the supreme court to review the Ap­
peals court order. Some professors of these big and famed universities are very cor-

11

rupted, abusive. I was working at Dr. Li-Huei Tsai lab at MIT until February 26,
2018 (2 years 11 months) on Alzheimer’s research in the field of neurobiology which
is a very fascinating subject. However, I was discriminated against and harassed.
On January 25, 2018,1 reported harassment, discrimination, and later research
misconduct. On January 27, 2018, it was discovered that she plotted an assassina­
tion on me. I discovered it at the final stage and foiled it, posted video pieces of evi­
dence immediately on Facebook (Facebook ID: Dilip Dey). In a bizarre move, on
February 06, 2018 (about 10 days after I reported the assassination plot on Facebook), they (MIT Dean of Biology) sent me a letter of "Merit increase" (salary in­
crease) effective from January 01, 2018. Surprisingly, the letter was backdated on
January 25, the date I formally complained to our research director of Tsai Lab
(Jennie Z. Young) by email (Appendix). Instead of addressing my grievances, they
said that I have mental illness and need to go to MIT Mental for the treatment (Ap­
pendix). They retaliated and started to harass me everywhere. They have blocked
my Linkedln account as I threatened to post pieces of evidence of research miscon­
duct. I threatened so that they stop harassing me in the streets and at home. They
suspended my twitter and after 2 years, I am back on Twitter. On February 12,
2018, Police blocked me (issued No-Trespass order) so that I can't enter at MIT for a
job interview. As I accused my boss of the assassination plot, MIT asked me for a
mental evaluation and I went through the mental evaluation on February 22, 2018,
by the MIT-appointed Psychiatrist Dr. David Rosmarin of Harvard McLean hospi-

12

tal. He wrongfully and willfully claimed I have schizophrenia. This is medical mal­
practice. Then MIT dismissed me from the job on February 26, 2018.
Before I get fired, they never warned me that I can get fired for postings pieces
of evidence on Facebook. I would have never posted on Facebook if they didn't har­
ass me and if they didn't delete my data from computers, my personal Dropbox ac­
count. Facebook was a place to save the pieces of evidence as it was not safe in my
computer (they deleted my files very often). However, they were also deleting some
pieces of evidence from my Facebook. I puzzled but didn't know how it could hap­
pen! Later I know how they were doing (they accessed through an insecure Wi-Fi
network provided by the landlord).
Although the Psychiatrist promised but didn't send me a copy of his evalua­
tion/diagnosis. MIT also didn't respond to my request for a copy of the psychiatric
evaluation. Then during August in 2018,1 sent the psychiatrist 2 registered, certi­
fied letters one after another requesting a copy of his evaluation report. I was pre­
paring for a lawsuit with the help of ACLU. Then he replied in September 2018 and
wrote that MIT asked him not to submit a mental evaluation report and he didn’t
submit one.
Dr. Tsai filed a restraining order against me at Cambridge court in May 2018
and the honorable Judge dismissed her baseless accusations on May 30. The judge
ordered me to go to MIT and look for a job (Appendix) after all, he wanted a good
future for me. I have obtained a copy of audio recordings of Court Proceedings.
However, MIT police did not allow me to attend a seminar or visit MIT.

13
I am at a loss of what should I explain to job interviewers. They ask me a lot of
questions like why I left the job from a full-funded research lab at MIT. I try my
best to explain that it is not my fault. They are afraid to offer me a job as Dr. Tsai is
a very powerful and established scientist in neurobiology. Without her recommen­
dation letter, nobody wanted to take risks of annoying her. She reviews NIH grants
and research papers from various scientists. In 2018,1 wrote to Dr. Tsai and MIT
President Rafael Reif that I applied for a job at MIT advertised around March 2018
(Professor Susumu Tonegawa Lab). It required a recommendation letter from the
most current boss. But Dr. Tsai doesn't give me a recommendation letter and
doesn't reply to any of my emails. Without her letter, people outside MIT think I
have done some crime like theft, data concoction, etc. (in reality, it is just the other
way). I also applied dozens of jobs at Harvard. Nobody gives me a job due to inter­
ference from Harvard and MIT. Not only Dr. Tsai, except my Ph.D. Mentor in Ja­
pan, but none of my bosses in the USA also want to give me a recommendation let­
ter. Dr. Benjamin and Harvard effectively put the bar on this! I feel like my dream
was hijacked by dishonest people and I am hostage to their detrimental whims. I do
not see any remedy from this without the honorable Supreme Court Judge's inter­
vention. They are doing gaslighting by claiming I have schizophrenia while at­
tempted murder on me several times since 2011.
Besides MIT and Harvard are trying to kill my job prospect by telling them con­
fidentially that I was fired from the jobs due to schizophrenia. This type of unprece­
dented hostility unleashed on me.

14
It is a crime to plot to kill a person or attempted assassination. Harvard, UCI,
MIT have started like urban warfare against a person with an unblemished charac­
ter and honesty. Administrative backing makes professors omnipotent and we suf­
fer harassment, abuse, discrimination at work silently. Inside the University cam­
pus and outside the workplace, police, and mercenaries harassed me and continuing
harassment, albeit, nowadays, in low frequency. They muzzle any dissent or Whis­
tleblower with retaliation that destroys the victim’s academic careers and possible
i

death (sometimes masqueraded as suicide). I am and my family is the victims of
this terror that endured so long. I gave overwhelming pieces of evidence in Exhibits
to the Federal and Appeals court. I have more audio, video, and hardcopy docu­
ments. Please let me know what else you need or which document looks untrue.
(For detailed information, I have published an eBook in Amazon Kindle. Title: Fly­
ing in Thin Air. July 17, 2019. Pages'- 822. ASIN: B07VHLVPVS). These despicable
instances of my Chinese boss's crime are a testimony of how far she can go to fulfill
her dream just like the Chinese government stealing intellectual properties using a
network of spies, researchers, faculties of Chinese origins. Not to mention how so­
phisticated the way she is doing research misconduct, getting privileged treatment
in publishing papers, and getting funding than other faculties at MIT. She has nav­
igated and created an elaborate network of those supporting people needed to fulfill
her dream. Unlike other professions, we can't protest for fear of retaliation and dif­
ficulty to get the next job. Thus, we researchers have to go through unbearable pain,
loss, and harassment and many young people leave science forever (Reports on

15
Journals “Science”, “Nature”). I can't get any job as my bosses don't give me any
recommendations starting from my first boss at Harvard. It is a cartel among some
faculty of the university, police, and mental hospital. People do whistleblowing
when absolutely necessary, UCI has whistleblowing homepage for reporting re­
search misconduct, fraud. However, I was singled out for merciless retaliation and
harassment because I am a minority and people of color.

REASONS FOR GRANTING THE WRIT
This case is a superior vehicle for resolving a circuit conflict on a well-defined le­
gal issue of exceptional importance to the national scientific research integrity.
a. It imposes this Court’s dismissal and reasoning is untenable resolve the con­
flict. this case is a superior vehicle for addressing the question presented because it
is brought in research and academic field.
b. The question presented is of exceptional importance, not a trifling and mali­
cious one. It involves saving a person’s life from the extrajudicial underworld killing
of an innocent man.
c. the Court of appeals’ decision is incorrect
It has shown a total disregard of my document (Brief) and the decision of the
court below, in particular, reflects a misapplication of federal competition law.
d. This case is a superior vehicle for addressing the question presented.
IV. The First Circuit’s decision is wrong.

16
BACKGROUND HISTORY
Going back in the past, my trouble started in the year 2000 when Dr. Benjamin
wanted to take away credit for my groundbreaking discovery in the field of virology
& cancer and wanted to give the 1st authorship to Dr. Jean Dahl, then lab Manager
and Instructor. I had long fought for 1st authorship while preparing to go to the
University of California, San Diego for another Postdoctoral job. It was a long
struggle and I had anxiety and fear. He threatened me to send back to Bangladesh
(I had no Green card at that time and I am a Hindu minority in Bangladesh). I
passed through anxiety for fear of deportation. I worked fof 3 years without any va­
cation, 7 days a week, and most of the time until midnight. His pressure and threat
made me very nervous and weak. I was admitted to the emergency room at Beth Is­
rael hospital and the attending physician suggested ways to deal with work-related
stress (Appendix). Later my PCP wrote a letter "To Whom It May Concern" and
suggested I should not be given work at after-hours or during the weekends. I pre­
sented the letter to Dr. Benjamin and he tore down the letter. Luckily, I kept a copy
of the letter. I contacted Pathology Department Chairman Dr. Peter Howley and
Ombudswoman Ms. Linda Wilcox. I suffered a lot from anxiety, fear, and total sleep­
less nights for 3 weeks. In the end, I cried and threatened Dr. Benjamin for a law­
suit that I never did during the last 19 years. For such an abusive treatment to me,
Dr. Benjamin was reprimanded by Harvard University. He was worried about being
sued by me and enraged by the reprimand, he destroyed my career and then tried to
destroy my life as well. From his fear of being sued, they attempted assassination in

17
2011 while worked with Greg Evans, MD at UCI, and later my boss Dr. Li-Huei Tsai
of MIT plotted the assassination that was discovered in January 2018. After I left
his lab, Dr. Benjamin told my professional referees that I attempted rape of his kids
(then 4 and 6 years-old sons) and he lied that I attempted suicide. Thus, by charac­
ter assassination, he tried his best to discourage referees not to give me recommen­
dation letters.
During my 2011 ordeal, I reported research misconduct by my boss Dr. Greg Evans (A very responsible Professor of our Surgery department suggested I report
about unethical research misconduct violating the law). I was also advised by Mela­
nie Fabian, IACUC Administrator, UCI to visit UCI Whistleblower’s homepage and
report unethical research. After that police harassed me almost daily basis, arrested
me, and sent to Aurora Charter Oak Behavioral Hospital, CA front office. After sit­
ting there for 2 hours, while I came out from the restroom near the front desk of the
hospital, they quickly blindfolded me in broad daylight and dragged me several
hundred yards and to another building where they admitted me to a mental ward.
There they tortured me for 2 weeks. They injected Haldol (Haloperidol) in my butt
against my will and immediately I had the complete urinary retention (urination
stopped), after repeated requests, they inserted the catheter twice to discharge
urine (1.8L 1st time and 800CC 2nd time). Haldol is a very dirty drug used to treat
schizophrenia patients in the 1950s. The next day, the mental hospital sent me to
the Downey Regional Hospital to treat my possible Urinary Tract Infection (UTI)
caused by catheterization. Dr. Kamini Chari kept me 3 days of observation and

18
treated me with some drugs. Then I was moved to the mental hospital again by an
ambulance. (Later, the hospital sent me an ambulance bill and I could not pay yet •
it is in collection company now). They were planning for a court ruling to keep me in
the hospital for 6 months. Then, I hired a lawyer Mr. Karl Schoth and he freed me
from that hell. Mr. Schoth reminded me "The whole purpose to bring you in this
mental hospital (by ca5150, involuntary confinement) is to create a record for you so
that police can shoot you in the future. Do you understand that?" He added, "If
someone in a shop asks you to leave for whatever reason, leave the place without
asking a question". Otherwise, the police come and shoot you and lie about you that
a mental patient attacked police ignoring the police's command to surrender! After
the release from the mental hospital, my PCP, regular hospital doctors refused to
prescribe me a drug that was recommended by Dr. Chari. They were being pres­
sured by UCI not to give me any drug or treatment. There was nobody to come for­
ward to support for fear of police retaliation.

Since 2001 to until now, I had moved about 7- 8 jobs (labs) (my CV included in
Appendix), although lack of funding was the primary factor. Police started to con­
tinuously harass me since 2011 (I came to the Harvard Medical School, Boston, USA
in 1998 and until 2011, police never talked to me, harassed me). I was stopped more
than a dozen times at IUPUI. They followed me in the buildings and sometimes up
to elevators! In 2011, police blocked me in the restaurants and in many cases, res­
taurants refused to serve me.

19
Finally, I came to Dr. Tsai's lab in 2015 with a sigh of relief that I will be valued
properly as she is a big professor at MIT and will not consider me a potential rival
for grant money. I refused the Assistant Project Scientist position at UCLA in 2015
and joined as a Technician at Tsai lab (Appendix). There was an attempt on my life
at UCI in 2011 and I narrowly survived. Then again, this time in the 2018 assassi­
nation plot by my MIT boss Dr. Tsai. I also survived! This time it is revealed that
since 2001, Dr. Benjamin pursued killing me with the help of "Underworld of Ameri­
ca Incorporation". While I worked (1998-2001) with Professor Thomas Benjamin at
the Department of Pathology, HMS, Dr. Tsai was a faculty in the same Department.
Dr. Tsai didn't get tenure at Harvard and moved to MIT and lost the HHMI fellow­
ship. So, probably she planned to implement Dr. Benjamin's wish to assassinate me;
as a reward (quid pro quo), she supposed to get a faculty position at Harvard again.
She is very ambitious, and I was her sacrificial lamb. In 2000, I told Dr. Tsai's
Graduate student Amitava Gupta, MD that I was in tremendous anxiety for Dr.
Benjamin's threat and harassment. He replied, "Are you in more anxiety than LiHuei (Tsai)? She is in tremendous anxiety and petrified with the fear that she
wouldn't get a tenured position at Harvard".
On February 26, 2018, I was dismissed from my MIT job for reporting discrimi­
nation, research misconduct, which any normal person would be compelled to re­
port. They retaliated and I am facing constant harassment. I applied for many jobs
but can't get a professional job due to MIT and Harvard police's No-Trespass order
and interference of Harvard and MIT authorities. I applied for Biotech jobs in Bos-

20

ton but they said there are several issues from MIT but could not specify. In the be­
ginning, they even did not allow me to apply online. There were various messages:
"User Name: Invalid, Invalid email", etc. Then I called HR and reminded them this
is unlawful to block me from applying for a job.

DR. GREG EVANS AT UCI SECRETLY FILED CRIMINAL CHARGES
AGAINST ME IN 2011.
It was discovered in September 2018 that my UCI boss Dr. Greg Evans (in con­
sultation with my wife and Dr. Probir Paul) had secretly submitted criminal charges
against me in 2012. They filed fake criminal reports against me that I am a danger­
ous guy, taken to the mental hospital, I was threatening people constantly and po­
lice from 4 cities (Norwalk, Tustin, San Diego, UCI, Los Angeles) in California were
looking for me. They also posted “Wanted” fliers in 5 police stations' internal mes­
sage boards while the police car was following me every day. Dr. Evans (UCI) filed,
"He was arrested ca5152 in 2011 and sent for a mental hospital. He has schizophre­
nia, Bipolar disorder and he escaped from the hospital and was threatening me (Dr.
Evans), my wife, and Dr. Probir Paul (friend of Dilip Dey & Ananna Dey) for 2
months. Police from 4 police stations were looking for him". They suggested imme­
diate arrest with a bail of $50,000 (this bail was not posted in the flier but my law­
yer Mr. Joseph Gibbons told me in 2018). Those are all lies. Police took me to the
mental hospital. Finally after 14 days, my Lawyer, Mr. Karl Schoth released me

21
from the mental hospital and he drove me to my apartment. I didn’t run away from
the mental hospital.
However, they kept the Criminal charges hidden. Background checks were done
4 times since 2012 - when I looked for a roommate in a townhouse (California), dur­
ing my IUPUI job in 2012, background check during the citizenship in 2013, 2018
by the State troopers in front of Massachusetts Governor Charlie Baker's residence
along with my other friends. Every time, it came clear. Their objective was if they
failed an assassination attempt again (at night while I was sleeping), they would
use police to kill me and then declare that this man had a prior history of terrible
mental diseases and criminal charges were filed against him in California. He
slipped away from California and was hiding from justice.
My wife got money from my bosses and had sexual relations with 3 of my direct
bosses (Drs. John Welsh, Raj Kandpal, and Greg Evans) and many other people. Be­
sides, as a gift, Dr. Evans did the plastic surgery of her belly fat and facial (heard
from her aunt Lovely Das in Bangladesh). When Dr. Tsai’s restraining order was
dismissed in the Cambridge court on May 30, 2018, both Harvard and MIT police
filed wiretapping charges against me in July 2018.1 told them again and again that
I was recording their conversation even I didn't know the law. Maybe some inad­
vertent moments, I couldn't declare them about conversation recording and they
took the chance. Harvard wiretapping charge was dismissed by Cambridge court.
MIT police withdrew the Wiretapping charges in the presence of the Magistrate at
the Cambridge Court. I am jobless for about two and a half years; the unemploy-

22

ment benefit ended in October 2018. For a temporary solution, I applied for UBER
job in August 2018 and I got an email about 3 months later that says MIT Police's
criminal charge against me pending! I am old (born in 1963) ran out of all options to
find a formal job. I almost finished my little retirement (401K) and did a part-time
job of the advisory role of a startup biotech (for 1 year, ended in April 2020).

Federal Appeals court ignored the threat of my and my family's life and our se­
curity: I received threatening emails via MIT email address (ddey@mit.edu) on Au­
gust 26, 2016. The message was “Your whole family will be killed” with the graphic
picture of a slaughtered Brown man lying in a pool of blood (Appendix). I reported
our Picower institute office (Brittany G.) and MIT police. I wanted to know the
origin of the email. Officials assured me to get back to me with the help of the IT
Department. They never did. I suspected it was sent by my past bosses or Norwalk,
CA police. I was getting telephone threats and they are asking me to leave Boston,
sometimes asking me to leave America. I also got email threats of assassination and
verbally face to face by landlord John Amaral (Appendix).
In the Tsai Lab, initially, I worked with Postdoctoral Fellow Dr. WR and helped
in his everyday work. He was very abusive and used demeaning language like "Your
memory doesn't work", "You are just a Technician", "You do not remember", "You
have early stages of dementia" etc. I also worked with one Korean Graduate Stu­
dent C.J. Yu. He was extremely rude, abusive, and arrogant and short-tempered.
One night (on weekend) in the lab, he called me "You are a dick". Everybody in the

23

lab hates Boss except me. As I had so terrible experiences at previous workplaces
and bosses were very predatory; so, I thought this boss is the best. My boss Dr. Tsai
very rarely talked with me. Instead, she used those Postdoctoral Fellows, Techni­
cians, Graduate students against me. I felt helpless but didn't want to complain.
One day (05/15/2015) WR told me "You have Alzheimer's, you don't remember, and I
can't work with you". I felt very down, went to my desk, and suddenly I felt dizzi­
ness and lightheaded. I passed out from fear and stress. After some time, I gained
consciousness. I was sweating, I told them sorry this is due to syncope and it hap­
pens when I am extremely stressful. (It started to happen since 2006 at my work.
Doctors asked me to avoid stress and not to overwork. Dr. Tsai and her Postdocs
forced me to work 7 days a week from around 9'-30 am/10 am to 1-2 am. I generally
availed the last train to go home and went to bed around 2^30 am.
A few days later Dr. Tsai arrived and was talking with Postdoc Dr. Ram
Madabhushi in the laboratory. I was passing that area and said "hi" to the boss. She
looked at me in disgust screamed and angrily said, "You passed out? Sick man, you
should not come to the lab". She added, "We need to sit with you as Waseem com­
plaining that you can't do work". I was terrified by her angry, ruthless, hateful, and
depressed face.
In the apartment (house) very week I had struggled with Chinese roommate Rui
Zhong. He verbally abused me, stole my stuff, intentionally toss my stuff in the
trash, left the main door open even during the night. Mr. Rui Zhong and Landlord
were hired by my MIT boss Dr. Tsai to keep an eye on me and do accordingly by

24
their instructions. They set up his desktop in his room to see real-time data collect­
ed from the surveillance camera landlord set up in my bedroom.
Federal Appeals court ignored my complaint of Theft of my Files From My Com­
puter and Internet Servers (Dropbox): One month after I complained discrimination
in 2018, I discovered my lab data deleted from my home computers, my data from
my previous lab (Greg Evans lab, UCI) is locked in my personal Dropbox (Appendix)
and I was denied access; my latest CV folder (updated on 2015) was deleted and my
Microsoft Office suite doesn't work. The "Date modified" history indicated those
tampering were done between January 16 to 23, 2018 just before Dr. Tsai was plan­
ning to dismiss me from the job (I heard the rumor! she decided to fire me from the
job on January 26, Friday). I have a video of the files' history ("Date modified").
I didn't discover until a month passed since filing complaints it was not my con­
cern and was beyond imagination that someone could do that type of thing in my
personal computer which is password protected. Albeit, the password was 10-12
years old and my wife knows that. On February 27, 2018, I wrote to HR about una­
ble to use my MacBook laptop and problems with opening Microsoft Word files but
they never reply. Later I had to buy a new laptop (Samsung) as my MacBook ren­
dered inactively and also bought Microsoft Office 360 suite as my desktop (iMac)
had trouble opening files.
Federal Appeals court ignored my complaint of Labeling me as Schizophrenia
patient- Dr. Benjamin of Harvard started a smearing campaign against me and told
my bosses that I have schizophrenia, I attempted rape of his kids. Those are all lies

25
by a desperate man devoid of any morality. In every workplace, my colleagues know
that I am neither of them. However, they follow the same pattern of maligning me.
My wife got a lot of money from them and they were using her. That is why a court
can order mental evaluation. I have heard that type of disparaging comments and
lie from Dr. Deborah Spector lab (UCSD), Greg Evans lab (UCI), Tsai lab (MIT). My
other boss Dr. Nissar Darmani of WUHS, Pomona also said to me, "Thomas Benja­
min told me you have Schizophrenia. Take some medication".
When I formally reported discrimination and sexual harassment on January 25,
2018, to my laboratory manager and scientific Director Dr. Jennie Young (Appen­
dix), she said, "What you have written, I am not clear about your message. We have
MIT mental and 24/7 hotline for consultation with any problem - family, divorce, fi­
nancial, etc. Why you sent me this. Call to MIT mental health department because
you need mental health care". I said it is not mentally related. I want a postdoc po­
sition (I am far qualified than the people I work with. Indeed, some of them should
be my technician). She said, "I can assure you, Li-Huei (Dr. Tsai) will never give you
a postdoc position," forget about that". I said, "Ok, as I have no option, I shall con­
tinue to work as a Technician and when I get a Postdoc offer, I shall leave. Dr. Tsai
should help me with a letter as I am working with her. She still suggested earnestly,
"Go to a mental hospital for consultation". I replied calmly, "If I need, only then (I
will go to a mental hospital)". Dr. Li-Huei Tsai has bipolar disorder. I can prove it
lab member was telling that.

26

I left her room and she went to Dr. Tsai for consultation. She came back and sent
me an email (Appendix). She wrote "Dear Dilip, Thank you for confiding about your
workplace problems with me. I am sorry to hear about your poor treatment by your
colleagues. No one deserves to be treated like that.......Additionally, you can take
help from such as Ombuds, MyLife, and from MIT mental health". Dr. Jennie Young
is a great person, everybody knows that. She was just parroting what Dr. Tsai told
her to say. Otherwise, she would be fired, harassed, and face career damage like me.
After 20 years of toiling at the lab bench and excruciating harassment that I
went through, now I see I lost everything that I hold dear in my mind - my dignity
& honor, privacy, family (marriage broke in 2011 and lost custody of only kid). I am
drained economically as I lost my job every year or every other year and left unem­
ployed many times in between the jobs.
Federal Appeals court ignored my complaint of Harassment and Reputation
Damage^ By the order of MIT (Appendix), my mental evaluation was done by David
Rosmarin, MD (McLean Hospital, Harvard Medical School) on February 22, 2018.
In the beginning, he said to me, "MIT and Dr. Thomas Benjamin of Harvard have
asked to do your mental evaluation”. After 3 hours and 30 min chat, he pronounced,
"As you are claiming your boss planned an assassination attempt on you, I am sure
you have a severe form of a mental disorder named Schizophrenia. You need to ad­
mit to the mental hospital. I have reserved a bed for you. You are a talented and de­
termined person. Hopefully, you will recover and one day you will bounce back to
work again". I said, "It is a lie. I have no schizophrenia and I shall file a lawsuit

27

against you for medical malpractice and for such a blatant accusation that can
damage my career". Then MIT dismissed me from the job on February 26, 2018. I
have the right to get a copy of my medical report. They didn't send until September
13, 2018, after I threatened to file a lawsuit through the ACLU.
Further damage by the wild accusation of Dr. Tsai and Restraining order: My
boss (Dr. Tsai) filed Restraining order on May 18, 2018, accusing that I can drug her
and rape her. I never used any drugs and a very sober person; she is just the oppo­
site (Lab Technician Oleg provides drugs for her). Everyone in the lab knows that.
Federal Appeals court ignored my complaint of Harassment and Reputation
Damage: MIT and Harvard police filed wiretapping criminal charges. Once Dr.
Tsai's restraining order rejected in Cambridge Court in May 2018, then MIT and
Harvard police filed 2 criminal charges against me for "Wiretapping". I didn't know
the law, but it didn't make any difference as I told many times during my conversa­
tion and voicemail that I am recording the conversation and will be used in the
court as a piece of evidence (that I called you and requested you to withdraw NoTrespass order). The first letter from Harvard police was stolen by my landlord. So,
in the second letter, they asked me to appear for arraignment. The honorable Judge
rejected Harvard police's arraignment request. For MIT Wiretapping charge, MIT
police told me in front of Magistrate that they are dropping the charges but later
proved that was a lie.
Federal Appeals court ignored my complaint of intentional infliction of emotional
distress: Defendant's intentional conduct was extreme, cruel, inhuman, criminal

28

act, and outrageous. Defendants intended to cause Plaintiff to suffer extreme emo­
tional distress. Plaintiff, his young daughter (4 years and 6 months old in 2011), and
his family in Bangladesh suffered humiliation, emotional distress, loss of reputa­
tion, anxiety, and mental and physical pain and anguish. Due to these outrageous,
despicable conduct, Plaintiff is entitled to recover punitive and exemplary damages
in an amount (a sum to be established according to proof) commensurate with De­
fendant's wrongful acts and sufficient to punish and deter future similar reprehen­
sible conduct. Defendant Suddenly Terminated Plaintiff For Bogus Reasons. There
was NO show-cause notice. In 2011, UCI gave show cause notice (Intent to Dismiss)
to me although they couldn't terminate me as my colleague Dr. Sean Darcy's lawyer
sent a letter to Dr. Aly, (Faculty, Plastic Surgery Institute) and reminded him that I
was protected by Whistleblower's protection law.
I can't write my last 18 years sad saga in a few pages that destroyed my career,
family life. Those events are all connected and initiated by Dr. Thomas Benjamin of
Harvard. The greatest surprising thing this type of assassination plot had full back­
ings and support from the institutions. I am available to argue that point in the
court. I will convince you with all circumstantial pieces of evidence (For detailed in­
formation, I have published an eBook in Amazon Kindle. Title: Flying in Thin Air.
July 17, 2019. Pages: 822. ASIN: B07VHLVPVS. ISBN 978-0-13-6019701). This is
scary for the scientific community!
They have blocked my email communication, phone calls, mail receiving. They
disturb me in my sleep; I have a video recording many times and kept in a safe

29
place. Whenever my eyes started to close around 11 pm at night, the sound started.
It stopped around March 2019. They steal letters from the court, deliveries from
Amazon.com.
Police didn't investigate allegations of the assassination plot.
I contacted Somerville police, MIT police about the assassination plot in Febru­
ary 2018 and afterward. MIT police said that as I live in Somerville, so I should go
to Somerville station. On May 19, I went to Somerville police station and formally
filed a report of persons involved in an assassination plot. They never investigated
and I was physically attacked by a group of young people in September 2019. Re­
ported to the police. Police promised they would check the surveillance camera on
the street intersection and Bank surveillance camera. But they did nothing.
Question of Privacy and Civil Rights. My landlord has put surveillance every­
where including my bedroom (Appendix). My daughter while visited from California
slept in my bedroom and I slept in the downstairs couch. My daughter used to
change her dress in my bedroom. My roommate Rui Zhong (an appointee of Dr. Tsai)
said they also took a real-time video of her and he asked for money ($200) and
blackmailed me he would post those videos on the Chinese website if I don't pay
money.
Dr. Tsai Actively Engaged in Race, Age-Based Discrimination, and Harassment
That Left Me Feeling Isolated and Vulnerable. This is a violation of civil rights and
the constitution. I was excluded from laboratory subgroup meetings, collaboration
meetings. She only invited me once to attend one meeting with the Donation group

30

"Belfer" on October 10, 2017 (Appendix). I was excluded from the all-day meeting
and invited just before the meeting ends. I saw they presented my data but there
was not my name in the acknowledgment. Defendant knew or should have known
that this conduct was unlawful and discriminatory.
FIRST CAUSE OF ACTION AGE DISCRIMINATION (Chapter 1518: Unlawful
discrimination because of race, color, religious creed, national origin, ancestry, or
sex). First Amendment violation. Plaintiff believes and thereon alleges that age and
Race was a determining factor for this discrimination. [Massachusetts Gov't Code§
MGL C.151B], Defendant discriminated against Plaintiff in the terms of attending
seminars at our building, wrote to give priority of work over seminars while verbal­
ly warned me not to attend seminars. I followed their order and gradually coaxed
them to allow me to attend a few seminars.
The defendant didn't allow to attend me (Plaintiff) in conferences (except one
time in November 2017); Defendant didn't put the name in publications whereas
she allowed those privileges to other younger employees. When I brought attention
to Lab manager Ying Zhou, and Postdoc Dr. YTL, both of them suggested not to
mention those issues as I could be fired from the job. Ying suggested me to remain
quiet. She is a very gentle, kind, and sister like figure to me. She said now there are
a lot of young people! so, I am dispensable now. I believed she gave me a good sug­
gestion.
Cause Of Action Failure To Provide Equal Pay And A Position According To
Plaintiffs Education And Experience.

31
[Massachusetts Code§ MGL c.272, s.98].
MGL c.272, s.98 Discrimination in admission to, or treatment in, place of public
accommodation, punishment, forfeiture, civil rights. Plaintiff Dr. Dilip Dey is not
being allowed to attend MIT and Harvard seminars.
Fraudulent act, my lab data deleted from my computer: THEY HAD PLAN TO
ASSASSINATE ME AND SELL IT AS A SUICIDE (Communication with my room­
mate Keifer B and my wife's aunt Lovely Das who lives in Bangladesh). Keifer B
told me that he was hired to impersonate me in social media after the assassination
and declare suicide.
My MIT boss wrote in restraining order affidavit that she asked MIT official to
block my Facebook. Then MIT General Counsel blocked it temporarily. L overcome
my stress and harassment by posting and interacting with friends on Facebook.
Harassment and Reputation Damage: Telephone threats, email threats, face to
face threats^
Police didn't act. For the ~3 years in Tsai lab, I faced so much abuse, harass­
ment, deception, and discrimination but I didn't dare to formally report even to Dr.
Jennie Z Young (my 2nd boss and Research Director at Tsai lab) who was in favor of
me. Dr. Tsai has 'fatally' damaged my career by keeping me in the Technician posi­
tion. Now people would believe I don't deserve a Scientist of Postdoctoral position. It
is very bizarre MIT Biology faculty Dean did Merit (salary) increase several days
after I reported the assassination plot. I incurred the MIT's ill will after complain­
ing about the discriminatory treatment. As a result of being fired for bogus reasons,

32

I suffered substantial losses in earnings and employment opportunities for 2 and a
half years, along with emotional distress.
My landlord from 2015-2018 (John Amaral) and Chinese roommate (Rui Zhong)
threatened me several times. They even came to my 2nd-floor bedroom door,
knocked, and warned me not to talk about the assassination plot. Landlord sent
text, emails "We need to brainstorm and find a way out. You are showing mental ill­
ness symptoms. Take the opportunity of your work (based health insurance) to get
mental help" etc. (Appendix). He was very aggressive at the beginning and 2nd
week of February he said angrily, "This time you survived (from assassination).
Probably next time you would not (survive)" His harassment and threats dimin­
ished significantly after May 19, 2018, the day I went to Somerville police station
and submitted a report of the assassination plot and gave the names of the accused
(defendants). Until then, it was everyday struggles and suffering. Police said they
would investigate and get back to me in 8-10 days. They never did. I got the latest
threat of assassination on October 02, 2018 (Please see Appendix for information)
and physically attacked in September 2019.
They set up sex traps since 2011 especially they sent a lot of women in 20102011 at UCI and 2015-2018 at MIT to flirt with me. Dr. Tsai Set up a lot of honeytraps with female employees not only at my work but also at my apartment, my
Church and my doctor's office (my PCP's office Nurse Practitioner Carmen Phillips
of Davis Square Family Practice was a sex trap. Elodie M. & Dr. Hyeseung Lee at
work were sex traps. Roommate Alessia I. among them). I have all the pieces of evi-

33

dence. I used to attend the "First Church of Somerville" and Jamie Thompson was a
sex-trap there. She apologized to me in Somerville fair, 2018, and said someone
from MIT asked her to lure me in sex. She added she didn't know the whole story
and was saddened by reading the assassination plot in my Facebook posts. Dr. Tsai
could not find anything wrong otherwise she would have fired me long ago. Strong
control of my desires saved my life.
Dr. Thomas Benjamin of Harvard set the plan to assassinate me. Drs. Greg Ev­
ans at UCI and Li-Huei Tsai both are Directors of Plastic Surgery Institute and
Picower Institute for Learning and Memory, respectively. Both the persons being top
bosses (Director), could mobilize resources and freehand to plan an assassination.
Like the Fourteenth Amendment, the Fifth Amendment includes a due process
clause stating that no person shall "be deprived of life, liberty, or property, without
due process of law." The Supreme Court has interpreted the Fifth Amendment's Due
Process Clause as providing two main protections^ procedural due process, which
requires government officials to follow fair procedures before depriving a person of
life, liberty, or property, and substantive due process, which protects certain funda­
mental rights from government interference. The Supreme Court has also held that
the Due Process Clause contains a prohibition against vague laws and an implied
equal protection requirement similar to the Fourteenth Amendment's Equal Protec­
tion Clause.
Title VII broadly prohibits employment discrimination by private-sector and fed­
eral-sector employers, respectively. Title VU’s private-sector provision makes it an

34
“unlawful employment practice” for an employer to take certain enumerated actions
against an individual “because of such individual’s race, color, religion, sex, or na­
tional origin.”

CONCLUSION
The Court should grant the petition for a writ of certiorari.
Respectfully submitted,

Dilip Dey, Ph.D.
29A Adams St.
Dorchester,
MA, 02122
Cell: (781)400-3422
Email: deydilipc@gmail.com
Pro Se
Date-'

